                           OFFICE OF
                    THE INSPECTOR GENERAL


                        U.S. NUCLEAR
                   REGULATORY COMMISSION




                            Review of ADAMS
                      OIG-02-A-12         June 12,2002




                      AUDIT REPORT

                                    pL:       REr&
                                                     0
                             4,
                            I
                            I
                            (J




                                    4     -    :z




All publicly available 0IG reports (including this report) are accessible through
                               NRC's website at:
                    http://www. nrc.gov/N RC/OI G/index.html




                                                                                    KI
                                            UNITED STATES
                             NUCLEAR REGULATORY COMMISSION
                                       WASHINGTON, D.C. 20555-0001




                                                   June 12, 2002
OFFICE OF THE
INSPEC TOR GENERAL


      MEMORANDUM TO:                William D. Travers
                                    Executive Director for Operations



      FROM:                         Step        Dingbaum
                                    Assistant Inspector General for Audits


      SUBJECT:                      REVIEW OF ADAMS (OIG-02-A-12)


      Attached is the Office of the Inspector General's audit report titled, Review of ADAMS.

      This report reflects the results of our review to determine how effectively NRC has implemented
      ADAMS and to assess what additional actions are required by NRC to make ADAMS
      successful.

      After implementing the system, NRC management completed a number of system fixes and
      upgrades to improve ADAMS' functionality and overall usefulness to NRC offices. However,
      management oversight of ADAMS is still hampered by weak management controls.
      Specifically, ADAMS lacks: a finalized systems development methodology policy; adequate
      steering group guidance; complete reporting of cost information to the Office of Management
      and Budget; and sufficient security access for ADAMS contractors. As a result, weaknesses
      continue in ADAMS project management, the costs associated with ADAMS will not be
      accurately reported, and sensitive information in ADAMS is at risk of disclosure to unauthorized
      individuals.

      This report makes four recommendations to improve ADAMS management controls.

      The comments your office provided in the May 24, 2002, memorandum have been incorporated
      into the report, where appropriate. Appendix B contains the memorandum in its entirety.

      Ifyou have any questions, please call me at 415-5915.

      Attachment: As stated

      cc:     Commissioner    Dicus
              Commissioner    Diaz
              Commissioner    McGaffigan
              Commissioner    Merrifield
                                   -I4 AL




cc:    R. McOsker, OCM/RAM
       B. Torres, ACMUI
      G. Hornberger, ACNW
      G. Apostolakis, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      W. Kane, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, 01
      P. Bird, HR
      I. Little, SBCR
      M. Virgilio, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      M. Federline, NMSS
      R. Zimmerman, RES
      J. Johnson, NRR
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, Rill
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                                                                                 Review of ADAMS


EXECUTIVE SUMMARY

BACKGROUND

      The Agencywide Documents Access and Management System (ADAMS) is the U.S.
      Nuclear Regulatory Commission's (NRC) electronic recordkeeping system that
      maintains the official records of the agency. The system was declared operational on
      April 1, 2000, despite system shortfalls with regard to functionality, ease of use,
      reliability, document tracking, and reporting capabilities desired by the agency. Because
      of these problems, in May 2000, the Chairman directed an assessment of the
      effectiveness and efficiency of ADAMS. In response to the Chairman's tasking
      memoranda, OCIO developed an ADAMS action plan and obtained an independent
      assessment of ADAMS.
PURPOSE

      The objectives of this audit were to 1) determine how effectively NRC has carried out
      the Chairman's requests, and 2) assess what additional actions are required by NRC to
      make ADAMS successful.
RESULTS IN BRIEF

      ADAMS cost millions of dollars more than expected, took longer to become operational
      than anticipated, and initially failed to produce significant improvements in document
      management.
      Progress Made After ADAMS Implementation
      After implementing the system, NRC management completed a number of system fixes
      and upgrades to improve ADAMS' functionality and overall usefulness to NRC offices.
      According to a user customer satisfaction survey, users favor the current version of
      ADAMS over the previous version that received a negative review just after the system
      became operational. For example, in one response, 72.7 percent of the users agreed or
      strongly agreed with the statement, 'The information that I get is current and up to date."
      However, ADAMS is now at a crossroads and a decision needs to be made on whether
      ADAMS should migrate to a web-based system. Regardless of this decision, specific
      management controls need to be improved.

       Management Controls Not Fully Implemented

       Management oversight of ADAMS is hampered by weak management controls.
       Specifically, ADAMS lacks: a finalized systems development methodology policy;
       adequate steering group guidance; complete reporting of cost information to the Office
       of Management and Budget; and sufficient security access for ADAMS contractors. As
       a result, weaknesses continue in ADAMS project management, ADAMS costs will not be
       accurately reported, and sensitive information in ADAMS is at risk of disclosure to
       unauthorized individuals.

                                               i
                                                                                              '-'4




                                                                            Review of ADAMS



RECOMMENDATIONS

     This report makes four recommendations to the Executive Director for Operations to
     improve ADAMS management controls.

AGENCY COMMENTS

     On May 24, 2002, the Executive Director for Operations (EDO) responded to our draft
     report with suggested changes and provided the basis for those changes. Primarily, the
     suggested changes clarify the context of the Exhibit 300B to the Office of Management
     and Budget.
                                                               Review of ADAMS

ABBREVIATIONS AND ACRONYMS

    ADAMS         Agencywide Documents Access and Management System
    COTS          commercial off-the-shelf
    FY            fiscal year
    IT            information technology
    Methodology   Systems Development and Life-Cycle Management Methodology
    NRC           U.S. Nuclear Regulatory Commission
    OCIO          Office of the Chief Information Officer
    OIG           Office of the Inspector General
    OMB           Office of Management and Budget




                                   iii
                                                     Revi
                                   Review of ADAMS




[Page intentionally left blank.]




              iv
                                                                                                     Review of ADAMS


TABLE OF CONTENTS

    EXECUTIVE SUMMARY ................................................                                                 i

    ABBREVIATIONS AND ACRONYMS .....................................                                               iii

    I.      BAC KG RO UND .................................................                                        1

    11.      P UR PO S E .....................................................                                     2

    II.     FIN D IN G S .....................................................                                     2

            A.          PROGRESS MADE AFTER ADAMS IMPLEMENTATION                 .................                 2

            B.          MANAGEMENT CONTROLS NOT FULLY IMPLEMENTED .................                                4

    IV.     CONSOLIDATED LIST OF RECOMMENDATIONS .....................                                           12

    V.      OIG RESPONSE TO AGENCY COMMENTS .........................                                            12

    APPENDICES

    A.      SCOPE AND METHODOLOGY ....................................                                           13

    B.      AGENCY COMMENTS ..........................................                                           15




                                                                V
                                                     .JJL
                                                        UL




                                   Review of ADAMS




[Page intentionally left blank.]




              vi



                                                     .1
                                                                                                     Review of ADAMS


I. BACKGROUND

                 The Agencywide Documents Access and Management System (ADAMS) is the
                 U.S. Nuclear Regulatory Commission's (NRC) electronic recordkeeping system
                 that maintains the official records of the agency. The ADAMS project likely
                 represents the single largest information technology system developed by the
                 NRC.

                 During the strategic planning process in 1993, development of ADAMS was
                 given the highest priority by internal customers, including a review board of
                 senior program managers. The staff envisioned a system with the tools for
                 creating, storing, retrieving, and retiring documents. The system would capture
                 incoming documents upon receipt, distribute them to the appropriate staff and
                 manage electronic records. ADAMS would replace numerous stovepipe
                 document management systems. NRC management wanted a paperless
                 environment, and at the same time maintain consistency with the year 2000
                 compliance plan.'

                 Original plans called for ADAMS to be implemented within two years while
                 complying with a multitude of system requirements specific to NRC. NRC
                 explored both govemment and commercial sources of document management
                 products. However, no single product met all system requirements. Therefore,
                 system requirements were met through a combination of commercial off-the
                 shelf (COTS) and custom developed software. The custom developed software
                 incorporated the business rules defined by the NRC that could not be provided
                 by COTS software at the time that NRC implemented ADAMS.

                 The system was not operational within the two-year deadline established by the
                 former Chairman. However, ADAMS became operational on April 1, 2000, in
                 spite of system shortfalls with regard to functionality, ease of use, reliability,
                 document tracking, and reporting capabilities. In May 2000, the current
                 Chairman directed a two-phased assessment to capture the important issues
                 and problems with the effectiveness and efficiency of ADAMS implementation.
                 First, office heads were asked to identify the problems that needed to be
                 addressed to make ADAMS an efficient and effective tool. Second, the Office of
                 the Chief Information Officer (OCIO) was tasked with clustering the office
                 identified problems into challenge areas and developing an Action Plan to
                 address each area. The Chief Information Officer (CIO) formed the ADAMS
                 Steering Group of NRC agency officials who classified specific problems
                 identified by the offices into ten challenge areas that would bring about the
                 desired changes to ADAMS.




         'The compliance plan was part of the NRC effort to be able to use the computer systems after
January 1, 2000. NRC developed an inventory of systems that included a ranking based on the criticality of the
system to Agency operations.

                                                           1
                                                                                                   -1- L




                                                                                 Review of ADAMS

            Previously Identified ADAMS Security Weaknesses

             In two other audit reports generated during the course of this audit, the Office of
            the Inspector General (OIG) made recommendations to strengthen ADAMS
            security weaknesses. The information contained in these reports was deemed
            sensitive, not for public release and not for release in ADAMS; therefore,
            discussion pertaining to specific weaknesses has been omitted. As part of the
            fieldwork for the first report, Independent Evaluation of NRC's Information
             Security Programas Required by the Government Information Security Reform
            Act (OIG-01-A-14, September 10, 2001), ADAMS security controls were tested
            during a vulnerability assessment. The OIG recommended that the Executive
            Director for Operations ensure that required security controls are implemented
            and that corrections are made, as appropriate. In the second report, Review of
            the UnauthorizedRelease of Documents to the ADAMS Public Library
            (OIG-01 -A-1 6, September 24, 2001), the OIG made two recommendations to
            improve ADAMS security.



II. PURPOSE

           The objectives of this audit were to 1) determine how effectively NRC has carried
           out the Chairman's requests, and 2) assess what additional actions are required
           by NRC to make ADAMS successful.



III. FINDINGS
           The management of major information technology (IT) projects has been a
           significant challenge for agencies and ADAMS was a significant challenge for
           NRC. NRC officials did not fully employ management controls to ensure the
           success of ADAMS. ADAMS cost millions of dollars more than expected, took
           longer to complete than anticipated, and initially failed to produce significant
           improvements in document management. The staff had envisioned a system with
           the tools for creating, storing, retrieving, and retiring documents. The proposed
           system would be able to capture incoming documents upon receipt, distribute
           them to the appropriate staff and manage electronic records. ADAMS would
           replace numerous stovepipe document management systems. Even though NRC
           management completed a number of system fixes and upgrades to improve
           ADAMS' functionality and overall usefulness to NRC offices, more needs to be
           done.

     A. PROGRESS MADE AFTER ADAMS IMPLEMENTATION

           In response to the Chairman's request, OCIO gathered office input and
           composed the ADAMS Assessment Action Plan which identified challenge areas


                                              2
                                                                   Review of ADAMS

that the agency must solve to make ADAMS an effective agency tool. The
majority of the tasks intended to solve the problems have been addressed.
However, OCIO needs to do more to be fully responsive to the Chairman's
request and to further improve the system. Specifically, functionality problems
have not been fully addressed.

OCIO has implemented many of the tasks identified within the 10 challenge areas
of the ADAMS Assessment Action Plan. The challenge areas include 52 tasks.
Of the 52 tasks, 24 were completed within 12 months; the balance represents
ongoing efforts. Also, a 2001 information technology customer satisfaction
survey reflects increasingly favorable customer satisfaction with ADAMS. The
survey contained several questions regarding ADAMS. For example, in one
response, 72.7 percent of the users agreed or strongly agreed with the following
statement describing ADAMS reliability, "The information that I get is current and
up to date." OCIO has also recorded in its tracking system increases in the level
of usage and a decrease in the number of complaints pertaining to ADAMS.
However, while many tasks were completed within the goals of the plan, problems
such as full text searching, revising applicable directives, and cleaning up the
existing ADAMS database, have not been fully addressed.

The ADAMS Assessment Action Plan identified the goals to make ADAMS an
effective agency tool such as the introduction of three new software releases of
the ADAMS product. OCIO planned to accomplish this goal in the following three
phases:

N      Phase 1: Migration Assessment -- Perform a detailed assessment for
       migrating to the next two planned releases of the vendor's software,
       versions 4.0 and 5.0. This was accomplished by November 2000.

0      Phase 2: ADAMS 4.0 -- Replace existing COTS items with newer COTS
       products with little or no change to the custom developed software. This
       action was delayed from FY 2001 to September 2002, but is still planned
       to take place.

0      Phase 3: ADAMS 5.0 -- Building on ADAMS 4.0, replace as much custom
       developed software with inherent COTS functionality as possible,
       streamline support, and improve public access. No projection date has
       been set for a decision on whether to migrate to ADAMS 5.0.

During phase 2, migration to the ADAMS 4.0 software version should address
functionality problems, such as full text search capability. In addition, the ADAMS
4.0 software version will replace existing software which is no longer supported by
the vendor. This replacement should improve performance and stability.
However, the degree of improvement will not be known until after the ADAMS 4.0
software version is actually in use. NRC needs to ensure that there are no
problems with the new software or its integration into NRC's computer



                                 3
                                                                                           I   ._JJ .1L
                                                                                                    .L




                                                                        Review of ADAMS

     environment. NRC is scheduled to proceed with the ADAMS 4.0 software version
     by September 2002 after testing by OCO is completed.

      In addition, NRC needs to plan for phase 3, the migration to the ADAMS 5.0
     software version which employs a user friendly, web-based interface that reduces
      reliance on custom developed software. An OCIO contractor recommended
      migrating to the ADAMS 5.0 software version to satisfy user expectations without
     implementing the ADAMS 4.0 software version. Funding has been established
     for ADAMS 5.0 in OCIO's planned budget in FY 2003 and FY 2004. A directional
     study is scheduled to begin in October 2002 to define the scope of ADAMS 5.0
     and develop a detailed project plan. The ADAMS 5.0 software version will cost
     the agency a total of $720,000 in FYs 2003 and 2004. The decision to upgrade to
     ADAMS 5.0 is dependent on whether OCIO can deploy the web-based software
     for the staff to use for search and retrieval and the results of an ADAMS 5.0
     directional study. NRC is well aware that a decision needs to be made and
     intends to take action after the ADAMS 4.0 software version is installed and user
     tested. Therefore, OIG makes no recommendation.

     Summary

     The ADAMS Assessment Action Plan identified goals to make ADAMS an
     effective agency tool. Thus, completion of all of the tasks identified in the ADAMS
     Assessment Action Plan is needed to sufficiently enhance ADAMS. User
     expectations have not been fully met because tasks remain such as implementing
     full text search capability, revising and updating applicable directives, and
     cleaning up the existing ADAMS database. OCO is aware of its user credibility
     problems and plans to complete the remaining tasks in the ADAMS Assessment
     Action Plan. OCO needs to plan for future development,       especially migrating
     from ADAMS 4.0 to 5.0.

B. MANAGEMENT CONTROLS NOT FULLY IMPLEMENTED

     Management oversight of ADAMS is hampered by weak management controls.
     Specifically, ADAMS lacks: a finalized systems development methodology policy;
     adequate steering group guidance; complete reporting of cost information to the
     Office of Management and Budget (OMB); and sufficient security access for
     ADAMS contractors. As a result, weaknesses continue in ADAMS project
     management, ADAMS costs will not be accurate, and sensitive information in
     ADAMS is at risk of disclosure to unauthorized individuals.

     Background

     Management controls are the organizational policies and procedures used to
     reasonably ensure that (i) programs achieve their intended results; (ii)resources
     are used consistent with agency mission; (iii) programs and resources are
     protected from waste, fraud, and mismanagement; (iv) laws and regulations are


                                      4
                                                                                                           Review of ADAMS

                   followed; and (v) reliable and timely information is obtained, maintained, reported
                   and used for decision making. 2

                    OMB CircularNo. A-130 specifies guidance pertaining to information systems
                   management oversight. Agencies shall establish information system
                   management oversight mechanisms that ensure that each information system
                   meets agency mission requirements. Also, agencies shall provide for periodic
                    review of the information system to determine how mission requirements might
                   have changed; whether the system continues to fulfill ongoing and anticipated
                   mission requirements; and what level of maintenance is needed to ensure the
                   system meets mission requirements cost effectively. Further, the guidance states
                   that agencies must ensure that the official who administers a program supported
                   by an information system is responsible and accountable for the management of
                   that information system throughout its life-cycle. Agencies must also ensure that
                   a major information system proceeds in a timely fashion towards agreed-upon
                   milestones in an information system life-cycle, meets user requirements, and
                   delivers intended benefits to the agency and affected public. This requires
                   coordinated decision making about the information, human, financial, and other
                   supporting resources that comprise the total system.

                   The following sections of this report describe the shortcomings of some key
                   management controls over the ADAMS project.

                             Inconsistently Applied Systems Development Methodology

                   At the time of OIG's 1999 audit of the ADAMS project, OCIO was not consistently
                   applying the Systems Development and Life-Cycle Management Methodology
                   (methodology). The absence of a consistently applied methodology increases the
                   chances that a project will not meet agency mission requirements. ADAMS cost
                   more than expected, took longer to complete than anticipated, and did not meet
                   functional requirements. OIG questions whether the methodology is currently
                   being consistently followed because it has not been published in NRC's
                   Management Directives.

                   The methodology starts with the definition of initial project requirements and
                   continues through the decommissioning of systems. Adherence to the
                   methodology's procedures and standards will likely yield improved product quality,
                   higher productivity, and portability of the personnel. Presumably, product quality
                   improves because everybody is using the best approach at that time and
                   productivity improves because there is no wasted time. Further, personnel should
                   become portable from one project to another because all projects within NRC
                   follow the same standards. Such structure and discipline were not present at the
                   time of OIG's 1999 review of the ADAMS project because OCIO did not provide


         2
           OMB CircularNo. A-130, TransmittalNo. 3, Appendix 1II, 'Security of FederalAutomated Information Resources,'
revised February8, 1996, and OMB CircularA-123, "ManagementAccountability and Control," revised June 21, 1995, provides the
guidance for assessing and reporting on controls.


                                                                5
                                                                  Review of ADAMS

an ADAMS Project Action Plan, a comparison of actual cost to budget, or a
detailed testing program.

At the time of this audit, NRC staff did not have ready access to the methodology
because it had not been placed in NRC's Management Directives system. In
January 1997, OCO issued guidance on the methodology and put it in place
shortly after the beginning of the ADAMS project; however, OCIO had not been
following the methodology at the time of the 1999 OIG review of ADAMS.
Presently, OCIO asserts that processes and procedures are in place to ensure
use of the methodology in IT projects.

The guidance on the methodology was issued to selected office directors.
Several organizational changes have occurred since then; therefore, present
NRC managers may not possess a copy of or even be aware of the guidance.
Management Directives accessible to NRC staff have not been updated to include
the methodology. The guidance for tailoring NRC's methodology is important to
system sponsors and project managers so they can fully understand their roles.
In essence, emphasis on the methodology is needed to ensure that resources are
not wasted on software development that does not meet user requirements.
Following the methodology also increases the likelihood that new versions of
ADAMS can be seamlessly integrated into the organization.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

1.     Finalize and issue Management Directive 2.5 (Draft), "Application Systems
       Life-Cycle Management' and Handbook 2.5 (Draft) "System Development
       and Life-Cycle Management Methodology."

       Inadequate Guidance on Making Agencywide Decisions

The ADAMS Steering Group operates without a clearly defined mission, objective,
scope or ending term because these intentions were not established when the
Steering Group was formed. In addition, the Steering Group was formed after
ADAMS became operational. Separation of key responsibilities and better
communication will provide more discipline to the group. Thus, the role and
responsibilities of this group should be clear to all parties so there is a common
set of expectations.

During the ADAMS project, communication between the user offices and the
technical office developing the system was not adequate to effectively oversee
changes and make vital decisions concerning the system. OCO established
ADAMS Partners to represent the offices at partners meetings and focus groups
as needed. The goal of the ADAMS Partners concept was to facilitate the
planning and implementation of ADAMS. However, information learned from the



                                6                                                    J
                                                                  Review of ADAMS

ADAMS Partners did not flow up the chain of command and back to OCIO in a
manner that kept all parties abreast of key developments.

After ADAMS deployment, the CIO formed an ADAMS Steering Group of senior
agency executives to assist in the process of assessing ADAMS issues.
According to a key OCIO official, the Steering Group is an effective vehicle for
making agencywide decisions concerning ADAMS. This individual also stated
that such a communication vehicle would have been helpful throughout the
ADAMS project. The role of the Steering Group, as described by the CIO in the
ADAMS Assessment Action Plan, was to:

       Develop a consensus on the current and future direction of the ADAMS
       program;

       Prioritize issues;

       Discuss tradeoffs and alternative deployment approaches;

       Provide advice on the refinement of the ADAMS Assessment Action Plan;
       and
       Participate in the presentation of the ADAMS Assessment Action Plan to
       the Executive Council and the Chairman.

Members of the Steering Group provided examples of the lack of clear
communication such as:
       When OIG asked members their opinion of the purpose of the Steering
       Group, there was no clear consensus to the answer, as most members did
       not remember seeing the purposes listed in the ADAMS Assessment
       Action Plan.

       Minutes of meetings were not routinely sent to members although the
       majority of the members would prefer to receive them. The members
       thought minutes would be especially helpful to determine what was
       discussed at meetings they were unable to attend.
       A member expressed the opinion that the level of issues brought to the
       Steering Group is not as important as they were during the implementation
       of ADAMS.

With a clearly delineated charter, alternate members would understand their roles
and responsibilities during attendance at the monthly scheduled meeting. A
charter would ensure that the valuable expertise of its members is effectively
applied to the Steering Group's purpose.




                                 7
                                                                                                  Review of ADAMS

                  Because of the inadequate guidance, separation of duties is a concern regarding
                  the leadership for the Steering Group. Issues that should be reviewed and
                  resolved by the Steering Group may not rise to that level. The Information,
                  Records, and Document Management Division (IRDMD) Director is the overall
                  ADAMS project manager, chairs the ADAMS Steering Group, leads 9 of the 10
                  challenge areas of the ADAMS Assessment Action Plan, and sets the Steering
                  Group meeting agenda. Separation of duties is the specific management control
                  standard applicable to this situation that has not been employed. Key duties and
                  responsibilities in authorizing, processing, recording, and reviewing official agency
                  transactions should be separated among individuals. Managers should exercise
                  appropriate oversight to ensure individuals do not exceed their assigned
                  authorities. A management control would be to select another member of the
                  Steering Group as the chair, due to the IRDMD Director's responsibility and
                  amount of direct involvement with ADAMS' technical development.

                 A Management Directive is expected to be issued in 2002 to clarify expectations,
                 roles and responsibilities for steering committees 3 , which should encompass
                 issues raised in this audit report. That guidance needs to be applied to the
                 ADAMS Steering Group.

                 OCIO informed the OIG at an exit conference on March 7, 2002, that the ADAMS
                 Steering Group was phased out on March 4, 2002. Future ADAMS items will be
                 addressed by an interoffice group focused on information technology and
                 information management planning and management issues. Although the
                 ADAMS Steering Group has been phased out, the functions of the Steering
                 Group are still required to ensure that ADAMS issues are addressed, especially
                 major changes such as migrating to ADAMS 5.0. Therefore, the proposed
                 interoffice focus group needs defined roles and responsibilities including
                 segregation of duties.

                  RECOMMENDATION

                  OIG recommends that the Executive Director for Operations:

                  2.       Clearly define the role and responsibilities of the interoffice group focused
                           on information technology. Clarification should include: the group's
                           mission; objectives, impartial leadership; and a defined membership.

                           Incomplete Reports to OMB

                  NRC did not report almost $3.7 million of costs for the ADAMS project to OMB for
                  FY 2001. OMB requires complete reporting of all costs, including those


          3 Memorandum Report OIG-01-A-01: The NationalMaterialsProgram Steering Committee (12/14/2000),
contains the recommendation that the agency, "Institute a requirement in the Management Directives that agency
steering committees formally define their roles and responsibilities." The Office of the Executive Director for
Operations agreed that such a management directive be developed.

                                                          8
                                                                        Review of ADAMS

associated with project development and operation. OCIO management
categorized costs attributable to ADAMS under functions other than the ADAMS
program costs because OCIO believes that OMB did not specify in the guidance
the specific costs that should be reported. In addition, OCIO has not considered
document processing costs as an ADAMS related cost.
OMB CircularNo. A- 11 Part3, "Planning,Budgeting and Acquisition of Capital
Assets," provides NRC management officials with guidance for preparing NRC's
FY2002 OMB Exhibit 300B, ADAMS, CapitalAsset Plan and Justification (Exhibit
300B). The Circular clarifies the expectations for the agency's Exhibit 300B, that
must be submitted for major IT systems or projects. The following topics must be
included:

Part I:           Summary of spending for projects stages, which is the amount of
                  budget authority and outlays;
Part I1:          Justification, which is a clear statement of how the asset will help
                  meet the agency mission, program management and acquisition
                  strategy; and,
Part III:         Cost, schedule, and performance goals.

In addition, OMB CircularNo. A-11, Section 53, Information Technology contains
a section designated 'What special terms must I know." The definition of
information technology under the terms, states, "information technology includes
computers, ancillary equipment, firmware and similar procedures, services
(including support services) and related resources."
Inaccurate reporting of costs skews the NRC's Exhibit 300B submission in several
ways:
           The cost is underreported to OMB;

           The baseline is not correct; and

           The total amount of the project cannot be calculated accurately.

NRC underreported the costs for ADAMS by almost $3.7 million for FY 2001.
NRC staff reported $3.2 million to OMB as the summary of spending for ADAMS
maintenance and operational phases. In response to a question on ADAMS
costs from the Chairman, the staff provided a table with FY 2001 costs of $7
million, which includes production, ADAMS action items, and document
processing improvements. The latter two costs should have been included in the
Exhibit 300B submission.

OCIO staff stated that the information provided to OMB in the Exhibit 300B and
the information provided to the Chairman are consistent. Further, they believe


                                    9
                                                                 Review of ADAMS

that they are in compliance with OMB guidelines because the cost of document
processing is not a cost of ADAMS operations.

According to the definition of IT in OMB CircularA-11, Section 53, supporting
services such as document processing costs should be included. The OMB IT
Specialist who reviews all Federal agencies 300B submissions, and the OMB
Budget Examiner for NRC, told OIG that NRC should be including full costs in the
Exhibit 300B submission, from the planning of a system through its disposal. OIG
also met with a General Accounting Office (GAO) Associate Director for IT. In his
opinion, if GAO audited an information system at NRC, it would expect that the
full cost of the system would be included in the Exhibit 300B submission.

This underreporting of the total costs of ADAMS is expected to continue. The FY
2002 costs to be submitted for the Exhibit 300B are estimated at about $3.1
million. However, an additional $3.4 million in production, action items, and
document processing will not be included in the total ADAMS costs for FY 2002.

The underreporting of costs also affects the ADAMS baseline. The OMB current
baseline is an amount showing how much above the previous year's amount the
project cost the agency. Each year OCIO must justify and OMB must approve
the new baseline. The approved amount is used as the baseline for the current
year. When an agency reports an amount 10 percent above the current baseline,
the agency is required to provide an explanation for the cost and schedule
variance.

NRC's current interpretation of OMB requirements makes the agency appear to
be in compliance with the 10 percent baseline requirement. However, this
compliance is achieved by not reporting the complete costs of ADAMS.
According to OMB, adjustments to the current baseline will be accepted with
proper justification so that the information can be accurate for the future.

The underreporting of the cost of ADAMS on a yearly basis also calls into
question the total amount NRC has spent on ADAMS. In 1997, the OCIO
projected that ADAMS would cost $12.7 million. The ADAMS costs reported to
OMB in Exhibit 300B to date were $25.6 million. The $25.6 million was
underreported by $5.6 million because the reported costs did not include
associated routine document processing costs, ADAMS Assessment Action Plan
items associated with document processing, the historical document retrofit
project, disaster recovery costs, or related full-time-equivalent resources.

At the exit conference, OCIO disagreed with OIG's position that NRC needs to
report more than project costs. The staff believes that the ADAMS costs
contained in Exhibit 300B submissions have been consistent with both written and
verbal OMB guidance, and with the project as described in the business case.
The OCIO staff intends to continue its interactions with OMB to ensure
compliance with OMB guidance for reporting full costs. After the exit conference,



                                10
                                                                    Review of ADAMS

OIG re-verified with OMB officials that the full cost of systems needs to be
reported.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

3.     Accurately and fully disclose ADAMS current and future costs in the
       CapitalAsset Plan and Justification(Exhibit 300B) to the Office of
       Management and Budget, which includes adjusting the baseline to the
       correct amount.

       Insufficient Security Access Granted to ADAMS Contractors

Essential ADAMS contractors with system administrator rights have not received
security clearances appropriate for their position. Management selected a low
level of security clearance for contractors with system administrator rights who
handle sensitive documents. Individuals who view and maneuver sensitive
information without the appropriate security clearance pose risk to the NRC.

Certain ADAMS contractors, handling document processing, possess the IT Level
IIsecurity clearance. Management Directive 12.3, Personnel Security Program,
Handbook Part1, states that the levels of security that contractors should possess
are based upon their capability to access computer systems. Specifically, the
policy states:

       IT Level I involves responsibility for the planning, direction, and
       implementation of a computer security program; major
       responsibility for the direction, planning, and design of a computer
       system, including the hardware and software; or the capability to
       access a computer system during its operation or maintenance in
       such a way that could cause grave damage; or the capability to
       realize significant personal gain from computer access.

In contrast, the "lower" Level IIof access to NRC computer systems is described
in the Management Directive simply as, 'All other IT positions." The duties
performed by the ADAMS contractor staff fit the IT Level I description because
their duties involve management responsibilities with the capability to do harm, or
have significant access to ADAMS and the sensitive documents contained
therein.

OCIO staff provided OIG a list of names of the contractor staff working on
contracts for ADAMS Centralized Document Processing and Document Retrofit
Management. There were approximately 40 ADAMS contractor staff who process
documents into ADAMS under these contracts, with at least four having system
administrator rights. In addition, the contractors perform the database clean up.
The statement of work for the ADAMS Centralized Document Processing contract

                                  11
                                                                                                IdIiL




                                                                            Review of ADAMS


        identified the Personnel Security Requirement as follows: "All contractor
        personnel working under this task order require an ADP Security [IT] Level II
        Clearance." Also, the statement of work for the Document Retrofit Management
        services contract did not include the personnel security requirement. OIG notes
        that the documents handled by ADAMS contractors under these task orders may
        contain sensitive information. OCIO staff later confirmed that certain ADAMS
        contractors, handling document processing, have IT Level IIsecurity. OIG
        believes the IT Level IIsecurity is insufficient for the contractors with system
        administrator rights to ADAMS.

         RECOMMENDATION

         OIG recommends that the Executive Director for Operations:

         4.     Require ADAMS contractors with system administrator rights to have
                Information Technology Level I Security Access.


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1.     Finalize and issue Management Directive 2.5 (Draft), "Application Systems
                Life-Cycle Management"and Handbook 2.5 (Draft) "System Development
                and Life-Cycle Management Methodology."

         2.     Clearly define the role and responsibilities of the interoffice group focused
                on information technology. Clarification should include: the group's
                mission; objectives, impartial leadership; and a defined membership.

         3.     Accurately and fully disclose ADAMS current and future costs in the
                CapitalAsset Plan and Justification (Exhibit 300B) to the Office of
                Management and Budget, which includes adjusting the baseline to the
                correct amount.

         4.     Require ADAMS contractors with system administrator rights to have
                Information Technology Level I Security Access.


V. OIG RESPONSE TO AGENCY COMMENTS

         On May 24, 2002, the Executive Director for Operations (EDO) responded to our
         draft report with suggested changes and provided the basis for those changes.
         Primarily, the suggested changes clarify the context of the Exhibit 300B to the
         Office of Management and Budget. We have incorporated the editorial
         suggestions to this report, where appropriate. Complete EDO comments can be
         found in Appendix B.


                                          12
                                                                              APPENDIX A
                                                                          Review of ADAMS


SCOPE AND METHODOLOGY

        The objectives of this audit were to 1) determine how effectively NRC has carried
        out the Chairman's requests and 2) assess what additional actions are required
        by NRC to make ADAMS successful. To accomplish the audit objectives, OIG
        assessed the agency's ADAMS efforts to date. 01G analyzed the ADAMS
        Assessment Action Plan, Management Directives, Systems Development and
        Life-Cycle Management Methodology, and other documents needed for ADAMS.
        In addition, OIG analyzed recommendations from previous audits and evaluations
        for inclusion. OIG interviewed staff and managers in NRC offices and one region
        based on their involvement in ADAMS, and interviewed OMB management to
        assess budget reporting requirements.

        This work was conducted from April 2001 through January 2002, in accordance
        with generally accepted Government auditing standards and included a review of
        management controls related to the objective of the audit. The work was
        conducted by Ren Kelley, Team Leader; Beth Serepca, Audit Manager; and Vicki
        Foster, Management Analyst.




                                        13
                                   Review of ADAMS




[Page intentionally left blank.]




               14
                                                                                                             Appendix B
                                                                                                        Review of ADAMS


AGENCY COMMENTS


    NS Re    5
                 (C
                                                         UNITED STATES
                                           NUCLEAR REGULATORY COMMISSION
                                                     WASHINGTON, D.C. 20555-0001


                                                          May 24,    2002


        MEMORANDUM TO:                   Stephen D. Dingbaum
                                         Assistant Inspector General for Audits
                                         Office of the Inspector General

        FROM:                            William D. Travers Iva
                                         Executive Director for Operations

        SUBJECT:                          FINAL DRAFT OIG REPORT ON THE REVIEW OF ADAMS

        This memorandum responds to your April 10, 2002, memorandum transmitting the final draft
        audit report on the review of ADAMS. We have reviewed the draft report and note that changes
        were incorporated in response to staff comments provided during and after meetings with you
        and your staff. This memorandum provides suggestions for additional changes to the revised
        report and the rationale for the suggestions.
            1. SUGGESTED CHANGES TO REPORT:
                  On page ii, the following should be added as the first sentence under the heading,
                  Progress Made after Adams Implementation.
                  In responses to Chairman's tasking memoranda of May 22, 2000, and August 29, 2000,
                  (1) an ADAMS action plan was developed which serves as a living document to guide
                  ADAMS corrective actions, and (2) an independent assessment of ADAMS determined that
                  the agency was on an appropriate path to establish an electronic document management
                  system to meet the agency's long-term needs.
                      BASIS FOR SUGGESTED CHANGE:

                      To acknowledge that the agency took appropriate actions in response to the Chairman's
                      tasking memoranda.

            2.        SUGGESTED CHANGES TO REPORT:

                      On page 12, last paragraph, modify the last sentence to read as follows: "The role of the
                      Steering Group, as described in the June 21, 2000, Network Announcement from the CIO,
                      and subsequently in the ADAMS Assessment Action plan, was to:"
                      BASIS FOR SUGGESTED CHANGE:
                      To acknowledge that the CIO provided written guidance to the Steering Group.




                                                                15
                                                                                                  Appendix B
                                                                                             Review of ADAMS




Stephen D. Dingbaum                         -2


3. SUGGESTED CHANGES TO REPORT:

   Revised the last paragraph on page 17 to read as follows:

   "N,,S unde reported the costs f.., ADAMS by alst    $.7 Ml..lio..f,," FY 201 The staff
   reported $3.2 million to OMB as the summary of spending for ADAMS maintenance and
   operational phases. In response to a question on ADAMS costs from the Chairman
   (June 15, 2001, memorandum from OCFO), the staff provided a table with FY 2001 costs of
   $7.0 M. The response noted that in addition to the ADAMS costs, the document processing
   costs were shown as supplemental information and that the funding identified for the
   ADAMS Action Plan was for improvements to the document processing function. The items
   in the table were labeled as ADAMS, ADAMS Action Plan, and Document Processing.
                                                                                                               1
   Respective costs were $3.3 M, $1.2 M, and $2.5 M. The IG believes that the latter two
   costs should also have been included in the Exhibit 300 Report to OMB. ,NRG .ffei,,
   ack.nowledge that the total aro, ,t s, .t n. ADAMS for F( 2091 was al.most $7F
    whe include prdein          ADAMS aet;on iters, amel deetiment pees          '.        f
                                                                                                               1
   The staff believes that the information provided to OMB in the Exhibit 300 Report and the
   information provided to the Chairman are consistent. en
   assacoted
   because the with
              ,,    ADAMS
                     af      than  eported,
                     ot de•junt poe•,,
   OIG disagrees. According..."
                                      •     they ai e, im
                                                               though th.....eare me costs
                                                                cewth
                                            ng.is, t et es of ADAMS    Cms
                                                                   .anpi       guidelies
                                                                         a tions.
                                                                       oe•          However,                   1
   BASIS FOR SUGGESTED CHANGE:

   To clarify the context of the Exhibit 300 Report and the information provided to the
   Chairman of which the ADAMS project costs were one component. Also, see comments
   below.

4. SUGGESTED CHANGES TO REPORT:

   On page 19, revise the 2" & 3 •dsentences in first full paragraph to read as follows:

   "In 1997, the OCIO projected that ADAMS would cost $1-.8 $12.7.million for project
   development cost and $2.9 million for maintenance cost through FY 2001. The ADAMS
   costs reported in the OMB Exhibit 300 Report to date were $25.6 million ($13.8 million for
   project development and $11.8 million for maintenance through FY 2003.)"

   BASIS FOR SUGGESTED CHANGE:
   To show comparable information. In submitting the Exhibit 300 Report, NRC has consulted
   with and followed OMB directions each year regarding projection of life cycle costs. The
   initial reporting year was FY 1997 and OMB required projections to FY 2001. Because OMB
   adds years to the total number of years in the life cycle, the total life cycle cost increases
   each reporting year.




                                                 16
                                                                                               Appendix B
                                                                                          Review of ADAMS




Stephen D. Dingbaum                         -3


5. SUGGESTED CHANGES TO REPORT:

   On page 19, add to second full paragraph as the last sentence:

   The staff believes that the ADAMS costs contained in Exhibit 300 Reports have been
   consistent with both written and verbal OMB guidance, and with the project as described in
   the business case. As experience has been gained, the OMB guidance on the information
   to be included in Exhibit 300 Reports has increased and been refined over the past several
   years. OMB, in recent discussions with the staff, stated that reporting of full-time equivalent
   resources will be explicitly required in the FY 2004 Exhibit 300 Reports. The staff intends to
   continue its interactions with OMB to help ensure that we comply with OMB guidance for
   reporting full costs.

   BASIS FOR SUGGESTED CHANGE:

   To acknowledge that reporting requirements have changed and that NRC's intent is to
   continue to comply with the latest OMB requirements.




                                             17
                                                                                                                                                                                                                                                                                 4
* wX"¼''                                                                                                                                                                                                                                                    rv,7r                    4wPfls94-
4pM'                                                                                             7>..
                                                                                                        ¾"      '4V
                                                                                                                                          K    '
                                                                                                                                                   '    '7'4'            4- 4444--A"'
                                                                                                                                                                                 "'"
                                                                                                                                                                                t4K"'Y'
                                                                                                                                                                                                       '49"'¼
                                                                                                                                                                                                              )V½
                                                                                                                                                                                                              'C"'                               swjgAX<'.k,;",,                                                                                               <'t'.&                 4           'tiS


                                                                                                                                                                                                                                                                                                                                                                                      '½
                                                                                                                                     -                                                      -F'

                                                                                                            QpA'>'14'                                                   .    "'21.                                                                                           1                                                                                                                    <'4'

49'','.                                                                                                                                                                                                                                                                                                                                                                     s                                  "A
  4.'
                          (             .<r'm't4'                                  V k           '4                    AfhF..' ','Y                                                                                                                                                                                                                     rs         s>-,                   '.             "'<

V             '•4N                      "Nt"w                                                  '''<'.444"                                                               '"4

                   g?""                 'C
                                                                                                                                                                                                                                                                                              -d                          '4'                       '*'.''                            k
                                                                                                                                                                                                                                                                                                         '                "44'
                                                                                                        K                   '<                 -              '.'                                                                                                4.                                          '




                                              '4                                                                                                                                                                            ¼'                  '½
                                                                             '¼,                                            '414



                                                                         "A          '4944"                                                                             4"      .                                          'C                   "'                                            4                                         "''s'Qy"'"4&j{'                                                        424



                                                                                                                                                       ; is
                                                                                                                                                                                                                                                                                                                                                                    44
                                             e4tXS<A.                                                       44                           ,".
                                                                                                                                                                                                                                            .',\             '       "                       'K'
                                                                                                                                                                                                                                                                  "4
                                                                                                                                                                4!..                '½'.                      '                     A
                                                                                                                                                                                                                                                                                                                                                                   ''4                     '4

                                                                                                                                                                                                                                                                                                                                                                                               '¼,


                                                                                                                                                                                                                                                 .4              '."cA                                                                                               4    '.14
                                                       _                                                                                                                                                                                                                                                                                             -"g
                                        At                                                                                                                                                                                                                                                               -                      .                 A>sAt&'t&'VK't
                   4'44'.-                     ,                                                                                                                                                                                                                         -           ¼"      'b'.                -                       .      "4'9$                       '"t,'.'
                                                           944".                                 j'                                                                                                                                                                                                                                                                                           4
A"'
 ¼" 's         9
                                    9,4                             4        444'                   .                                                                                                                               ,,¼'

                                                                                                                                                         '14                                                                                                                                                                                                 '1'            <.

                              42-'4/"t§."                                "     '4                               '                                                                                  i ¾ t                                                                                                             '""                     "K'                                               >4


                                                                                                                                                                                                                                    'N                                                                                              #4;)                                      *




                                                                                                                                                                                    '
                                                                                                                                                                                                                                                                                     "<"'9'''                              9'                44>J'4
                                        A"'
$s%t; AW                                                                                                                                                                                                                                                                                      '4''                                                                                    '¼"'.


                                                                                                                                                                                                                                           it                                                                                                                      <"9        t'          44
                                                                                                                                                                                                                                                                                                                                                 '$4'
                                                                                                                                                                                                                                                                                                                                    4'          r<v44(                          V4'44%4
                                                                                                                                                                                                                      '4"'               ,.a'                                                                                                                                                     4' "'44<
                                                                                                                                                                                                                                                                                                                                                                                                           'A'.'
                                                               4'.                         '¼",'.                                                                                                      <4:                                                                                                                                                                                                94
                                                               '4'
                                                               "7 4"t4''                                                                                                        4;
                                                                                                                '4 5             ,             -

                                                                                             "4'                       44                                                                                                                                                                                                                    t45
                                    '          4 r"                 '"
                                                        "44'
                                t4                                                                                                                                                                                                                                                                                    'A                                                              ..          "'


                                                                                           "'4P44 4            ''i''             ,..-''<'Sfl.                                           K                             21-            ">5              -                                                  ""4At"                     4
                                                                                                                                                                                                                                                                                                                                                                                      "'4k             <PwV
                                                                                                                                                                                    'iM'               ',,.
                                                                                                                                                                                                                     '4"                  . '                     4'                         4--                     ""                           v"r                s-"                  t        4>44""
                                                                                                                                                                                        S         ''4"
                                                                                                                                                                                                                                                                                                                     '4."','
                                                                                                                                                                                                                                                                                                                                                                   '"442'
                                                                                                                                                                                                                       <P
                                                                                                                                                                                                                      .4"'                421'                                                                                                                                                                 4'
                                                                                                                                                                                                                                                                                                                                        '.4,"




                                                           '        <«'                                             4+                                 <'4"                                                            44                                                                                        '$<&                                                4'?'                                      49



                                                                                             N                                            'SA'r.4                               -                                                                                                                    '

                                                                                                                '44                                     44444"                                                         1                                                                 -                           .'¼'               'itt'
                4                                                                                                                                                                                                                                                <4"                 ""9

                              ""S
                                                   -                                                    F                                «54914'42                                      <'         '                   42'      4         4'                                                                                                                                       '44.4
                                                                                                                                                                                                                                                                                                                                                                     4'           4.4.
          ,   9 4'A'V'P<4"'flC                         ""4'                    94'    .'                                                                            -                   "                                                ''..        '4.'           ''           '   '                                                                                                                         44.

                                                               -'                                                      "'                                >'........
                                               -                             ..42442'<                       .'4294->            "4'               J$t9'< 4."«
